Department of Homeland Security
   Office of Inspector General

   Survey of the Number, Qualifications, and 

  Training of DHS Personnel Responsible for 

Administering Recovery Act Contracts and Grants





      American Recovery and Reinvestment Act of 2009





OIG-10-21                                               December 2009
                                                            Office of Inspector General

                                                            U.S. Department of Homeland Security
                                                            Washington, DC 20528




                                December 3, 2009


                                     Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment to
the Inspector General Act of 1978. This report is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities for programs, grants and
projects administered by the department under the American Recovery and Reinvestment
Act of 2009.

At the request of the Recovery Accountability and Transparency Board, we distributed a
survey to the DHS components that administer Recovery Act funds to obtain information
about contracting and grant management capabilities. The Board prepared the survey to
meet its responsibility to determine whether the federal government has a sufficient
number of adequately trained acquisition personnel administering Recovery Act contracts
and grants.

Our report summarizes and highlights responses to the survey from the DHS components
that administer Recovery Act funds - the U.S. Coast Guard, Customs and Border
Protection, Immigration and Customs Enforcement, the Transportation Security
Administration, the Federal Emergency Management Agency, and the Office of the Under
Secretary for Management of DHS.

As this report is for information purposes only, it does not present any recommendations.
We express our appreciation to those DHS officials who responded to this survey under
very short time constraints.




                                         Richard L. Skinner 

                                         Inspector General 

Table of Contents/Abbreviations 


Executive Summary ............................................................................................................ 1 


Background ......................................................................................................................... 2 


Results of Survey ................................................................................................................ 4 


        Staffing Recovery Act Work...................................................................................... 5 

        Impact on Recovery Act Work of Staffing Shortfalls................................................ 5 

        Impact on Non-Recovery Act Work of Staffing Recovery Act Work....................... 6 

        Qualifications of Acquisition and Grant Staff ........................................................... 7 

        DHS Actions to Address Acquisition and Grant Workforce Staffing Needs ............ 7 



Appendices

    Appendix A: Objective, Scope, and Methodology........................................................ 9 

    Appendix B: Summaries of Selected Data Reported by DHS Components on 

                 the Number and Training of Acquisition and Grant Workforces......... 10 

    Appendix C: Status of Recommendations Contained in the GAO Report Entitled 

                A Strategic Approach is Needed to Better Ensure the Acquisition
                Workforce Can Meet Mission Needs, GAO-09-30 ................................ 16 

    Appendix D: Major Contributors ................................................................................ 17 

    Appendix E: Report Distribution................................................................................ 18 



Abbreviations

     ARRA                American Recovery and Reinvestment Act of 2009 

     CBP                 U.S. Customs and Border Protection 

     DHS                 Department of Homeland Security 

     FEMA                Federal Emergency Management Agency 

     GAO                 Government Accountability Office 

     ICE                 Immigration and Customs Enforcement 

     OIG                 Office of Inspector General 

     TSA                 Transportation Security Administration       

     USGS                United States Coast Guard 

     USM                 Office of the Under Secretary for Management 

OIG

Department of Homeland Security
Office of Inspector General

Executive Summary
                      The American Recovery and Reinvestment Act of 2000 (Recovery
                      Act) provided $787 billion to the federal government to provide an
                      economic stimulus to the U.S. economy. Of that amount, the
                      Department of Homeland Security received $2.75 billion for various
                      projects run by the Office of the Under Secretary for Management,
                      U.S. Customs and Border Protection, U.S. Immigration and Customs
                      Enforcement, Transportation Security Administration, the U.S.
                      Coast Guard, and the Federal Emergency Management Agency.

                      This report highlights and summarizes the department’s responses to
                      a government-wide survey designed to measure the capability of the
                      federal government’s acquisition and grant workforce to administer
                      Recovery Act funds. The survey was prepared by the Recovery
                      Accountability and Transparency Board as part of its responsibility
                      to oversee Recovery Act funds.

                      Of the six departmental components, the Transportation Security
                      Administration and the Federal Emergency Management Agency,
                      which administer 58 percent of the department’s Recovery Act
                      funds, reported that they do not have enough staff to adequately
                      award and/or monitor Recovery Act funds. As a result, they
                      forecasted decreased oversight on both Recovery Act and non-
                      Recovery Act agreements. Regarding staff qualifications, all
                      components said that their acquisition and grant staff, for the most
                      part, would meet training requirements.

                      This report is presented for informational purposes only and
                      therefore does not contain any recommendations. However, we
                      noted that the department has actions in process to upgrade its
                      acquisition and grant staff in response to prior reviews.

                      Finally, the Board will use the department’s responses and those
                      from other federal agencies to prepare a government-wide report on
                      the sufficiency of contract and grant staff to oversee Recovery Act
                      funds.




    Survey of the Number, Qualifications, and Training of DHS Personnel Responsible for 

                    Administering Recovery Act Contracts and Grants 


                                               1
Background

                     The American Recovery and Reinvestment Act of 2009 (Recovery
                     Act or ARRA) made available to federal agencies approximately
                     $787 billion for preserving and stimulating growth in the United
                     States economy. Components within the the Department of
                     Homeland Security (DHS) received $2.75 billion for the following
                     activities:

                                             AMOUNT
                      COMPONENT             (in millions)            ACTIVITY

                      Office of the Under        $200       • DHS Headquarters
                      Secretary for                           Building Consolidation
                      Management

                      U.S. Customs and           $420        • Land Ports of Entry
                      Border Protection          $100        • Non-Intrusive Inspection
                                                               Technology
                                                 $100        • Southwest Border
                                                               Technology
                                                  $60        • Tactical Communications


                      U.S. Immigration           $20         • Tactical Communications
                      and Customs
                      Enforcement

                      Transportation          $1,000        •	 Baggage and Passenger 

                      Security                                 Screening Equipment 

                      Administration

                      Coast Guard                $142        • Alteration of Bridges
                                                  $98        • Shore Facilities, Aids to
                                                               Navigation, Priority
                                                               Procurements, and Vessel
                                                               Repairs

                      Federal Emergency          $210        • Assistance to Firefighter
                      Management                               Grants
                      Agency                     $100        • Emergency Food and
                                                               Shelter Grants
                                                 $150        • Transit and Rail Security
                                                               Grants
                                                 $150        • Port Security Grants

                     Based on the nature of the funded activities, the Office of the Under
                     Secretary for Management (USM), U.S. Customs and Border
   Survey of the Number, Qualifications, and Training of DHS Personnel Responsible for
                   Administering Recovery Act Contracts and Grants

                                             2
                          Protection (CBP), the U.S. Immigration and Customs Enforcement
                          (ICE), Transportation Security Administration (TSA), and the U.S.
                          Coast Guard (USGS) will be administering Recovery Act contracts
                          and the Federal Emergency Management Agency (FEMA) will be
                          managing Recovery Act grants.

                          Section 1521 of the ARRA created the Recovery Accountability and
                          Transparency Board1 to “coordinate and conduct oversight of
                          covered [Recovery Act] funds to prevent fraud, waste, and abuse.”
                          The functions of the Board include “reviewing whether there are
                          sufficient qualified acquisition and grant personnel overseeing
                          covered funds; and . . . whether personnel whose duties involve
                          acquisitions or grants made with covered funds receive adequate
                          training.”

                          To obtain a current benchmark of the acquisition and grant
                          communities in the federal government while Recovery Act funds
                          are being awarded, the Board, in consultation with the Department
                          of Commerce, Office of Inspector General, developed a survey.
                          Instructions from the Board explained that the survey is divided into
                          seven sections corresponding to the categories of officials who make
                          up the acquisition and grant workforce, as follows:

                          •	 Acquisition
                             1. Contracting Officer
                             2. Contracting Officer Technical Representative/Contracting
                                Officer Representative
                             3. Contracting Program/Project Managers
                             4. Contracting Support Personnel

                          •	 Grant
                             5. Grants Officer
                             6. Grant Program/Project Managers
                             7. Grant Support Specialists

                          For each of the seven workforce categories, there are roughly 15 to
                          20 questions designed to obtain:

                          •	 Statistics on the number of total staff, number of staff on
                             Recovery Act work, and percentage of time staff spent/will spend
                             on Recovery Act activities from April 1, 2009, though June 30,
                             2009; from July 1, 2009, through December 31, 2009; and from

1
 The RAT Board consists of a Chairman and 12 Inspectors General from the Departments of
Agriculture, Commerce, Defense, Education, Energy, Health and Human Services, Homeland Security,
Interior, Justice, Transportation, Treasury, and the Treasury Inspector General for Tax Administration.
       Survey of the Number, Qualifications, and Training of DHS Personnel Responsible for
                           Administering Recovery Act Contracts and Grants

                                                     3
                      January 1, 2010 through June 30, 2010;
                  •   Number of additional staff needed for Recovery Act work;
                  •   Impact of not having enough staff;
                  •   Training requirements; and
                  •   Training received

                  We provided the survey to the department’s Senior Accountable
                  Official for the Recovery Act on August 5, 2009, and conducted an
                  entrance conference to discuss the survey with department
                  contracting and grant officials on August 6, 2009. The Senior
                  Accountable Official distributed the survey on August 11, 2009, to
                  the departmental components that received Recovery Act funds.
                  The Senior Accountable Official requested that the components send
                  the completed surveys to our office by August 31, 2009.

                  We received one completed survey each from USM, CBP, ICE,
                  TSA, and USCG. FEMA submitted five survey responses, one each
                  for the three units that administer Recovery Act funds and two from
                  its Grants Management Directorate. FEMA is the only DHS
                  component administering Recovery Act grants; and does not
                  manage any Recovery Act contracts.

                  In accordance with Board instructions, we provided them with the
                  survey responses on September 11, 2009. The Board will combine
                  the responses from all applicable federal agencies administering
                  Recovery Act funds and issue a consolidated report in December
                  2009. The Board also authorized Inspectors General to issue a
                  report on the survey responses for their agencies.


  Results of Survey
                  Of the DHS components receiving Recovery Act funds, only TSA
                  and FEMA reported that they do not have enough staff to adequately
                  award and/or monitor Recovery Act funds. As a result, they
                  forecasted decreased oversight on both Recovery Act and non-
                  Recovery Act agreements. Regarding qualifications and training of
                  staff who are required to have training, all components said that
                  their acquisition and grant staff, for the most part, would meet
                  training requirements. Further discussion of the survey responses
                  are presented below. Summaries of selected data on the number and
                  training of acquisition and grant workforces by DHS components
                  are shown in Appendix B.



Survey of the Number, Qualifications, and Training of DHS Personnel Responsible for 

                Administering Recovery Act Contracts and Grants 


                                           4
          Staffing Recovery Act Work
                  •	 TSA replied that it has enough contracting officers but that it
                     needs an additional six contracting officer’s technical
                     representatives, six program managers, and three contract
                     specialists. TSA received $1 billion (36 percent) of the $2.75
                     billion.

                  •	 FEMA answered that it does not have enough grant program
                     mangers to award and administer Recovery Act grants totaling
                     $610 million (22 percent) of the total DHS Recovery Act funds.
                     In particular, the responses from the three units that administer
                     the Port and Transit, Fire Assistance, and Emergency Food and
                     Shelter grants indicated a need for two additional grant program
                     managers per program. The response from FEMA’s Grants
                     Management Division said that, prior to receipt of Recovery Act
                     funds, it estimated a need for 34 additional grant program
                     specialists/support personnel. The Grants Management Division
                     response did not identify the additional staff needed for
                     Recovery Act fund management, but it did say that staff will be
                     working overtime to meet needs.

                  •	 CBP, USCG, ICE, and USM responded that they have sufficient
                     acquisition staff to award and monitor Recovery Act contracts.
                     These components received $1.14 billion (42 percent) of the
                     $2.75 billion received by DHS.

          Impact on Recovery Act Work of Staffing Shortfalls

                  •	 TSA said that its Recovery Act work will be hindered by the
                     lack of acquisition staff. For instance, the response said that:

                           COTRs [Contracting Officers Technical
                           Representatives] are performing their regular
                           duties in addition to their Recovery Act
                           responsibilities. This means that our resources
                           are heavily overburdened. This situation has
                           the potential to cause increased errors and
                           difficulty with timely reporting as our staff is
                           focused on performing multiple duties
                           concurrently.

                  •	 FEMA’s units that administer Recovery Act grant
                     programs predicted that the lack of staff will cause

Survey of the Number, Qualifications, and Training of DHS Personnel Responsible for 

                Administering Recovery Act Contracts and Grants 


                                           5
                      delays in the initiation of fire assistance
                      construction projects and decreased oversight of
                      port, transit, and emergency food and shelter grants.


          Impact on Non-Recovery Act Work of Staffing
          Recovery Act Work
                  •	 TSA forecasted adverse impacts on its non-Recovery Act
                     contracts including reduced quality of work, lack of sufficient
                     oversight of contracts, slower response time to contractual issues,
                     and missed deadlines.

                  •	 FEMA anticipated delays in regular grant activities and that
                     grantees may not get as much direct support, onsite program
                     monitoring, and technical assistance as they might need.

                  •	 CBP, ICE, and USM forecasted minimal impact on non-
                     Recovery Act work. For example, CBP said that:

                           In many instances, Recovery Act projects aligned
                           with procurement and program work already
                           underway, in these instances, economies of scale
                           and efficiencies were leveraged. Also, delaying
                           non-ARRA procurement and program work has
                           allowed the agency to focus its resources on
                           these projects.

                  •	 USCG reported that, in addition to deferring non-Recovery Act
                     work; there may be other unfavorable consequences. For
                     example, USCG said that:

                           Oversight of non-ARRA contracting actions
                           has decreased, quality of work has decreased as
                           staff tries to absorb ARRA responsibilities,
                           new initiatives have been delayed, and training
                           has been delayed. In addition, non-warranted
                           support will have to award/administer non-
                           ARRA actions to allow time for the warranted
                           support to award/administer the ARRA funded
                           actions.




Survey of the Number, Qualifications, and Training of DHS Personnel Responsible for 

                Administering Recovery Act Contracts and Grants 


                                           6
                    Qualifications of Acquisition and Grant Staff
                              •	 TSA, USCG, ICE, CPB and USM responded that most of the
                                 Contracting Officers, Contracting Officers Technical
                                 Representatives, and Program Managers are or will soon be
                                 certified.2

                              •	 CBP stated that the Contracting Officers and Contracting
                                 Officers Technical Representatives will all be certified by June
                                 2010, with the majority being certified by December 2009. CPB
                                 also said that the program managers assigned to several
                                 Recovery Act projects are not certified to the appropriate level.
                                 CBP's goal is to ensure certification at the appropriate levels for
                                 all Program Managers supporting both Recovery and non-
                                 Recovery workload.

                              •	 FEMA responded that they have no contracting staff in need of
                                 certification relative to Recovery Act work. The FEMA units
                                 supporting the Port and Transit, and Fire Assistance grants
                                 reported that all assigned grant program mangers will have
                                 satisfied FEMA’s training requirements.3 However, FEMA
                                 reported that one Grant Program Manager supporting the
                                 Emergency Food and Shelter Program has not satisfied all
                                 agency-specific requirements.

                    DHS Actions to Address Acquisition and Grant
                    Workforce Staffing Needs
                              DHS has actions in process to address acquisition and grant
                              workforce staffing needs.

                              In response to a report4 issued by the Government Accountability
                              Office (GAO), DHS is implementing five recommendations to
                              enhance its acquisition workforce. The status of the
                              recommendations as of September 2009 is presented in Appendix C.



2
 Office of Federal Procurement Policy Letter 05-01, Developing and Managing the Acquisition Workforce,
presents the requirements for federal agencies for training and certifying contracting officials (series GS – 1102).
3
  To be a Grants Program Officer within FEMA, staff must: (1) have at least 3 to 5 years experience awarding
and managing grants to states; and (2) be a certified grants manager or have equivalent professional
experience with increasing levels of responsibility in grants management.
4
  Department of Homeland Security: A Strategic Approach Is Needed to Better Ensure the Acquisition
Workforce Can Meet Mission Needs, GAO-09-30, issued November 19, 2008.
       Survey of the Number, Qualifications, and Training of DHS Personnel Responsible for
                         Administering Recovery Act Contracts and Grants

                                                             7
                  Our report on the Management Challenges Facing the Department
                  of Homeland Security identified grants management as one of the
                  department’s major challenges. In that regard, FEMA does not
                  consistently and comprehensively execute its two major oversight
                  activities, financial and program monitoring. This occurs, in part,
                  because FEMA does not have sufficient grants management staff.

                  FEMA has formed an Intra-Agency Grants Program Task Force that
                  has developed a FEMA Grants Strategy to drive future
                  enhancements in grants policies, procedures, systems, and processes.
                  The task force has identified projects including the development of
                  comprehensive grant management monitoring policies and
                  procedures for the FEMA directorates with program management
                  and oversight responsibilities.




Survey of the Number, Qualifications, and Training of DHS Personnel Responsible for 

                Administering Recovery Act Contracts and Grants 


                                           8
Appendix A
Objective, Scope, and Methodology


The Recovery Accountability and Transparency Board asked Inspectors General to
distribute a survey of federal agency contracting and grant staffing and qualifications.
The Board will use the results of the survey to issue a report on the sufficiency of the
number and training of the federal government’s contracting and grants staff
overseeing Recovery Act funds. The objective of our report is to highlight and
summarize the survey responses from DHS.

The survey was prepared for the Board by the Office of Inspector General, Department of
Commerce. The Board instructed Inspectors General to issue the survey to the Senior
Accountable Official for the Recovery Act in each Agency for subsequent distribution to
agency components. We gave the survey to the Senior Accountable Official on August 6,
2009, who directed the components to respond to us by August 31, 2009. One response
was received from CBP, USM, ICE, TSA, and USCG. FEMA submitted five responses.
All responses were received by September 11, 2009.

From the completed surveys, we tallied key data from each of the respondents. We did not
validate the data contained in the responses because it was not required by the Board. To
familiarize our self with the subject matter, we reviewed the Recovery Act; related DHS,
Office of Management and Budget, and Board guidance; recent General Accountability
Office and DHS-OIG reports pertaining to acquisition and grant staffing; and related DHS
responses to the reports.

We prepared our report between September 14 and October 9, 2009.




     Survey of the Number, Qualifications, and Training of DHS Personnel Responsible for 

                     Administering Recovery Act Contracts and Grants 


                                                9
Appendix B
Summaries of Selected Data Reported by DHS Components on the Number and
Training of Acquisition and Grant Workforces

              Office of Under Secretary for Management
                                                                     Reported Information
                                                                Actual   Forecasted Forecasted
                                                               04/01/09   07/01/09     01/10/10
                         Staff                                    to          to          to
                        Category           Description         06/30/09   12/31/09     06/30/10
                                          Total Staff                   0.0              0.0              0.0
                      Contracting         Staff on ARRA                 0.0              0.0              0.0
                      Officers            Staff Certified1              0.0              0.0              0.0
                                          FTE2                          0.0              0.0              0.0

                                          Total Staff                  15.0             22.0             23.0
                      Contracting
                                          Staff on ARRA                 3.0              3.0              3.0
                      Officers
                                          Staff Certified1              3.0              3.0              3.0
                      Representative
                                          FTE2                          0.2              0.5              0.5

                                          Total Staff                  15.0             19.0             20.0
                      Contracting
                                          Staff on ARRA                15.0             19.0             20.0
                      Program
                                          Staff Certified1             15.0             19.0             20.0
                      Managers
                                          FTE2                          3.8              9.5             10.0

                                          Total Staff                   0.0              0.0              0.0
                      Contracting
                                          Staff on ARRA                 0.0              0.0              0.0
                      Support
                                          Staff Certified1              0.0              0.0              0.0
                      Personnel
                                          FTE2                          0.0              0.0              0.0

                                          Total Staff                   0.0              0.0              0.0
                                          Staff on ARRA                 0.0              0.0              0.0
                      Grant
                                          Staff Certified1              0.0              0.0              0.0
                      Officers
                                          FTE2                          0.0              0.0              0.0

                                          Total Staff                   0.0              0.0              0.0
                      Grant               Staff on ARRA                 0.0              0.0              0.0
                      Program             Staff Certified1              0.0              0.0              0.0
                      Managers            FTE2                          0.0              0.0              0.0

                                          Total Staff                   0.0              0.0              0.0
                      Grant Support       Staff on ARRA                 0.0              0.0              0.0
                      Specialists         Staff Certified1              0.0              0.0              0.0
                                          FTE2                          0.0              0.0              0.0
                      1
                        Indicates the number of staff assigned to ARRA work in the category and time period
                      that have received requisite certifications and/or training.
                      2
                        Full time equivalent (FTE) represents the number of FTE assigned to ARRA work based
                      of actual/forecasted hours worked for each time period. FTE’s are computed on the basis
                      of total hours worked for all Recovery Act staff in the category and time period divided
                      by the maximum number of compensable hours in a work year.




    Survey of the Number, Qualifications, and Training of DHS Personnel Responsible for 

                    Administering Recovery Act Contracts and Grants 


                                                   10
Appendix B
Summaries of Selected Data Reported by DHS Components on the Number and
Training of Acquisition and Grant Workforces

              Customs and Border Protection
                                                                       Reported Information
                                                                  Actual   Forecasted Forecasted
                                                                 04/01/09   07/01/09     01/10/10
                           Staff                                    to          to          to
                          Category           Description         06/30/09   12/31/09     06/30/10
                                            Total Staff                 88.0             95.0           109.0
                        Contracting         Staff on ARRA                8.0             16.0            17.0
                        Officers            Staff Certified1             8.0             16.0            17.0
                                            FTE2                         1.5              8.4             8.7

                                            Total Staff             1,385.0          1,510.0          1,710.0
                        Contracting
                                            Staff on ARRA               9.0             14.0             15.0
                        Officers
                                            Staff Certified1            4.0              7.0              7.0
                        Representative
                                            FTE2                        1.3              5.9              6.3

                                            Total Staff               813.0            813.0            813.0
                        Contracting
                                            Staff on ARRA               6.0              8.0              7.0
                        Program
                                            Staff Certified1            4.0              6.0              7.0
                        Managers
                                            FTE2                        1.0              2.6              2.3

                                            Total Staff               117.0            152.0            157.0
                        Contracting
                                            Staff on ARRA               5.0              9.0              9.0
                        Support
                                            Staff Certified1            5.0              9.0              9.0
                        Personnel
                                            FTE2                        0.4              2.6              2.6

                                            Total Staff                  0.0              0.0              0.0
                                            Staff on ARRA                0.0              0.0              0.0
                        Grant
                                            Staff Certified1             0.0              0.0              0.0
                        Officers
                                            FTE2                         0.0              0.0              0.0

                                            Total Staff                  0.0              0.0              0.0
                        Grant               Staff on ARRA                0.0              0.0              0.0
                        Program             Staff Certified1             0.0              0.0              0.0
                        Managers            FTE2                         0.0              0.0              0.0

                                            Total Staff                  0.0              0.0              0.0
                        Grant Support       Staff on ARRA                0.0              0.0              0.0
                        Specialists         Staff Certified1             0.0              0.0              0.0
                                            FTE2                         0.0              0.0              0.0
                        1
                          Indicates the number of staff assigned to Recovery Act work in the category and time
                        period that have received requisite certifications and/or training.
                        2
                          Full time equivalent (FTE) represents the number of FTE assigned to Recovery Act
                        work based of actual/forecasted hours worked for each time period. FTE’s are computed
                        on the basis of total hours worked for all Recovery Act staff in the category and time
                        period divided by the maximum number of compensable hours in a work year.




    Survey of the Number, Qualifications, and Training of DHS Personnel Responsible for 

                    Administering Recovery Act Contracts and Grants 


                                                  11
Appendix B
Summaries of Selected Data Reported by DHS Components on the Number and
Training of Acquisition and Grant Workforces

              Immigration and Customs Enforcement
                                                                     Reported Information
                                                                Actual   Forecasted Forecasted
                                                               04/01/09   07/01/09     01/10/10
                         Staff                                    to          to          to
                        Category           Description         06/30/09   12/31/09     06/30/10

                                          Total Staff               105.0            115.0            125.0
                      Contracting         Staff on ARRA               2.0              2.0              2.0
                      Officers            Staff Certified1            2.0              2.0              2.0
                                          FTE2                        0.2              0.6              0.4

                                          Total Staff               677.0            707.0            737.0
                      Contracting
                                          Staff on ARRA               2.0              2.0              2.0
                      Officers
                                          Staff Certified1            2.0              2.0              2.0
                      Representative
                                          FTE2                        0.3              0.7              0.7

                                          Total Staff                 33.0             66.0             99.0
                      Contracting
                                          Staff on ARRA                3.0              3.0              3.0
                      Program
                                          Staff Certified1             3.0              3.0              3.0
                      Managers
                                          FTE2                         0.4              0.8              0.8

                                          Total Staff                 98.0             98.0             98.0
                      Contracting
                                          Staff on ARRA                2.0              2.0              2.0
                      Support
                                          Staff Certified1             0.0              0.0              0.0
                      Personnel
                                          FTE2                         0.1              0.5              0.3

                                          Total Staff                  0.0              0.0              0.0
                                          Staff on ARRA                0.0              0.0              0.0
                      Grant
                                          Staff Certified1             0.0              0.0              0.0
                      Officers
                                          FTE2                         0.0              0.0              0.0

                                          Total Staff                  0.0              0.0              0.0
                      Grant               Staff on ARRA                0.0              0.0              0.0
                      Program             Staff Certified1             0.0              0.0              0.0
                      Managers            FTE2                         0.0              0.0              0.0

                                          Total Staff                  0.0              0.0              0.0
                      Grant Support       Staff on ARRA                0.0              0.0              0.0
                      Specialists         Staff Certified1             0.0              0.0              0.0
                                          FTE2                         0.0              0.0              0.0
                      1
                        Indicates the number of staff assigned to Recovery Act work in the category and time
                      period that have received requisite certifications and/or training.
                      2
                        Full time equivalent (FTE) represents the number of FTE assigned to Recovery Act
                      work based of actual/forecasted hours worked for each time period. FTE’s are computed
                      on the basis of total hours worked for all Recovery Act staff in the category and time
                      period divided by the maximum number of compensable hours in a work year.




    Survey of the Number, Qualifications, and Training of DHS Personnel Responsible for 

                    Administering Recovery Act Contracts and Grants 


                                                  12
Appendix B
Summaries of Selected Data Reported by DHS Components on the Number and
Training of Acquisition and Grant Workforces

              Transportation Security Administration
                                                                     Reported Information
                                                                Actual   Forecasted Forecasted
                                                               04/01/09   07/01/09     01/10/10
                         Staff                                    to          to          to
                        Category           Description         06/30/09   12/31/09     06/30/10

                                          Total Staff                 44.0             46.0             46.0
                      Contracting         Staff on ARRA                6.0              6.0              6.0
                      Officers            Staff Certified1             6.0              6.0              6.0
                                          FTE2                         1.5              4.1              4.1

                                          Total Staff               447.0            510.0            550.0
                      Contracting
                                          Staff on ARRA               9.0              9.0              9.0
                      Officers
                                          Staff Certified1            8.0              8.0              9.0
                      Representative
                                          FTE2                        0.8              1.7              1.6

                                          Total Staff               295.0            302.0            310.0
                      Contracting
                                          Staff on ARRA              25.0             25.0             25.0
                      Program
                                          Staff Certified1           15.0             15.0             25.0
                      Managers
                                          FTE2                        2.3              5.5              4.5

                                          Total Staff                 57.0             59.0             59.0
                      Contracting
                                          Staff on ARRA                4.0              5.0              5.0
                      Support
                                          Staff Certified1             4.0              5.0              5.0
                      Personnel
                                          FTE2                         0.5              1.8              1.8

                                          Total Staff                  0.0              0.0              0.0
                                          Staff on ARRA                0.0              0.0              0.0
                      Grant
                                          Staff Certified1             0.0              0.0              0.0
                      Officers
                                          FTE2                         0.0              0.0              0.0

                                          Total Staff                  0.0              0.0              0.0
                      Grant               Staff on ARRA                0.0              0.0              0.0
                      Program             Staff Certified1             0.0              0.0              0.0
                      Managers            FTE2                         0.0              0.0              0.0

                                          Total Staff                  0.0              0.0              0.0
                      Grant Support       Staff on ARRA                0.0              0.0              0.0
                      Specialists         Staff Certified1             0.0              0.0              0.0
                                          FTE2                         0.0              0.0              0.0
                      1
                        Indicates the number of staff assigned to Recovery Act work in the category and time
                      period that have received requisite certifications and/or training.
                      2
                        Full time equivalent (FTE) represents the number of FTE assigned to Recovery Act
                      work based of actual/forecasted hours worked for each time period. FTE’s are computed
                      on the basis of total hours worked for all Recovery Act staff in the category and time
                      period divided by the maximum number of compensable hours in a work year.




    Survey of the Number, Qualifications, and Training of DHS Personnel Responsible for 

                    Administering Recovery Act Contracts and Grants 


                                                  13
Appendix B
Summaries of Selected Data Reported by DHS Components on the Number and
Training of Acquisition and Grant Workforces

              U.S. Coast Guard
                                                                     Reported Information
                                                                Actual   Forecasted Forecasted
                                                               04/01/09   07/01/09     01/10/10
                         Staff                                    to          to          to
                        Category           Description         06/30/09   12/31/09     06/30/10

                                          Total Staff               465.0            509.0            509.0
                      Contracting         Staff on ARRA               5.0              6.0              7.0
                      Officers            Staff Certified1            5.0              6.0              7.0
                                          FTE2                        0.6              1.9              2.3

                                          Total Staff             1,830.0          1,941.0          2,060.0
                      Contracting
                                          Staff on ARRA              11.0             11.0             11.0
                      Officers
                                          Staff Certified1           11.0             11.0             11.0
                      Representative
                                          FTE2                        0.8              1.4              1.5

                                          Total Staff               104.0              92.0             92.0
                      Contracting
                                          Staff on ARRA               7.0               7.0              7.0
                      Program
                                          Staff Certified1            6.0               7.0              7.0
                      Managers
                                          FTE2                        0.9               1.8              1.8

                                          Total Staff               218.0            218.0            218.0
                      Contracting
                                          Staff on ARRA               3.0              6.0              6.0
                      Support
                                          Staff Certified1            3.0              5.0              6.0
                      Personnel
                                          FTE2                        0.4              1.5              1.5

                                          Total Staff                  0.0              0.0              0.0
                                          Staff on ARRA                0.0              0.0              0.0
                      Grant
                                          Staff Certified1             0.0              0.0              0.0
                      Officers
                                          FTE2                         0.0              0.0              0.0

                                          Total Staff                  0.0              0.0              0.0
                      Grant               Staff on ARRA                0.0              0.0              0.0
                      Program             Staff Certified1             0.0              0.0              0.0
                      Managers            FTE2                         0.0              0.0              0.0

                                          Total Staff                  0.0              0.0              0.0
                      Grant Support       Staff on ARRA                0.0              0.0              0.0
                      Specialists         Staff Certified1             0.0              0.0              0.0
                                          FTE2                         0.0              0.0              0.0
                      1
                        Indicates the number of staff assigned to Recovery Act work in the category and time
                      period that have received requisite certifications and/or training.
                      2
                        Full time equivalent (FTE) represents the number of FTE assigned to Recovery Act
                      work based of actual/forecasted hours worked for each time period. FTE’s are computed
                      on the basis of total hours worked for all Recovery Act staff in the category and time
                      period divided by the maximum number of compensable hours in a work year.




    Survey of the Number, Qualifications, and Training of DHS Personnel Responsible for 

                    Administering Recovery Act Contracts and Grants 


                                                  14
Appendix B
Summaries of Selected Data Reported by DHS Components on the Number and
Training of Acquisition and Grant Workforces

              Federal Emergency Management Agency
                                                                     Reported Information
                                                                Actual   Forecasted Forecasted
                                                               04/01/09   07/01/09     01/10/10
                         Staff                                    to          to          to
                        Category           Description         06/30/09   12/31/09     06/30/10

                                          Total Staff                  0.0              0.0              0.0
                      Contracting         Staff on ARRA                0.0              0.0              0.0
                      Officers            Staff Certified1             0.0              0.0              0.0
                                          FTE2                         0.0              0.0              0.0

                                          Total Staff                  9.0             14.0             16.0
                      Contracting
                                          Staff on ARRA                2.0              4.0              4.0
                      Officers
                                          Staff Certified1             2.0              4.0              4.0
                      Representative
                                          FTE2                         0.1              0.9              0.7

                                          Total Staff                 10.0             12.0             17.0
                      Contracting
                                          Staff on ARRA                0.0              0.0              0.0
                      Program
                                          Staff Certified1             0.0              0.0              0.0
                      Managers
                                          FTE2                         0.0              0.0              0.0

                                          Total Staff                  4.5              7.5              7.5
                      Contracting
                                          Staff on ARRA                1.0              3.5              3.5
                      Support
                                          Staff Certified1             0.0              0.0              0.0
                      Personnel
                                          FTE2                         0.1              1.8              1.8

                                          Total Staff                 16.0             16.0             16.0
                                          Staff on ARRA               16.0             16.0             16.0
                      Grant
                                          Staff Certified1            16.0             16.0             16.0
                      Officers
                                          FTE2                         0.2              2.4              0.4

                                          Total Staff                 42.0             54.0             66.0
                      Grant               Staff on ARRA               13.0             22.0             36.0
                      Program             Staff Certified1            10.0             19.0             33.0
                      Managers            FTE2                         1.1              3.6              4.3

                                          Total Staff                 56.0             57.0             70.0
                      Grant Support       Staff on ARRA               31.0             31.0             37.0
                      Specialists         Staff Certified1             0.0              0.0              0.0
                                          FTE2                         0.4              4.5              1.0
                      1
                        Indicates the number of staff assigned to Recovery Act work in the category and time
                      period that have received requisite certifications and/or training.
                      2
                        Full time equivalent (FTE) represents the number of FTE assigned to Recovery Act
                      work based of actual/forecasted hours worked for each time period. FTE’s are computed
                      on the basis of total hours worked for all Recovery Act staff in the category and time
                      period divided by the maximum number of compensable hours in a work year.




    Survey of the Number, Qualifications, and Training of DHS Personnel Responsible for 

                    Administering Recovery Act Contracts and Grants 


                                                  15
Appendix C
Status of Recommendations Contained in the GAO Report Entitled Department of
Homeland Security: A Strategic Approach is Needed to Better Ensure the Acquisition
Workforce Can Meet Mission Needs, GAO-09-30

             Recommendations                                Status as of September 2009

 1. Establish an interim working definition of    Partially Complete. The definition is finished
 the acquisition workforce that more              and DHS will add career fields to the definition
 accurately reflects the employees                as it expands into those fields.
 performing acquisition-related functions to
 guide current efforts, while continuing to
 formally add career fields to the definition.

 2. Determine whether the department’s            Partially Complete. The Office of the Chief
 current initiatives related to recruiting and    Procurement Officer will expand the department-
 hiring are appropriate for acquisition-related   wide Acquisition Professional Career Program
 career fields other than contract specialists    with 14 technical participants to generate a total
 and, if so, develop plans to implement the       of 100 participants by the end of fiscal year
 initiatives within the broader acquisition       2009. DHS also partnered with the Federal
 workforce.                                       Acquisition Institute to develop a plan to recruit
                                                  mid-level career professionals.

 3. Develop a comprehensive                       Partially Complete. An Acquisition Workforce
 implementation plan to execute the existing      Human Capital and Succession Plan has been
 DHS acquisition workforce initiatives. The       submitted to the Office of Federal Procurement
 implementation plan should include               Policy. Numerous related actions are in process
 elements such as performance goals, time         such as growing the centralized hiring concept,
 frames, implementation actions and related       executing a centralized training program, and
 milestones, and resource requirements.           leveraging of direct hire and using reemployed
                                                  annuitants to fill critical vacancies.

 4. Direct the Chief Human Capital Officer        In Process. The Acquisition Workforce Human
 and the Chief Procurement Officer to             Capital and Succession Plan was jointly
 establish a joint process for coordinating       developed and all reporting requirements for use
 future acquisition workforce planning            of the hiring flexibilities are being coordinated.
 efforts with the components for the              The Office of the Chief Procurement Officer
 purposes of informing department-wide            includes the Human Capital Office on the
 planning efforts.                                invitations and distribution lists for applicable
                                                  meetings.

 5. Improve the collection and maintenance        In Process. DHS is represented on the Office of
 of data on the acquisition workforce.            Federal Procurement Policy working group that
                                                  is addressing this issue on a government-wide
                                                  basis.




     Survey of the Number, Qualifications, and Training of DHS Personnel Responsible for 

                     Administering Recovery Act Contracts and Grants 


                                                  16
Appendix D
Major Contributors

                      Roger LaRouche, Director
                      Andrea Rambow, Desk Officer
                      J. Eric Barnett, Auditor - Project Lead
                      Virginia Feliciano, Auditor
                      Jeffrey Balsewicz, Program Analyst




    Survey of the Number, Qualifications, and Training of DHS Personnel Responsible for
                    Administering Recovery Act Contracts and Grants

                                              17
Appendix E
Report Distribution

                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff for Operations
                      Chief of Staff for Policy
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      Under Secretary for Management
                      DHS Acting Chief Procurement Officer
                      Director Office of Procurement Operations
                      DHS Component Liaison, FEMA
                      DHS Component Liaison, CBP
                      DHS Component Liaison, TSA
                      DHS Component Liaison, USCG
                      DHS Component Liaison, ICE
                      DHS component Liaison, USM

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




    Survey of the Number, Qualifications, and Training of DHS Personnel Responsible for 

                    Administering Recovery Act Contracts and Grants 


                                              18
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
